     U.S. ELECTION ASSISTANCE
            COMMISSION
   OFFICE OF INSPECTOR GENERAL




             REPORT OF INVESTIGATION:
           PREPARATION OF THE
VOTER FRAUD AND VOTER INTIMIDATION REPORT




                     This report contained information that has been redacted
NO. I-IV-EAC-02-08   pursuant to 5 U.S.C. §§ 552(b)(2), (b)(6) and (b)(7)(c) of
MARCH 2008           the Freedom of Information Act. Supporting
                     documentation for this report may be obtained by sending
                     a written request to the OIG.
X


                          United States Department of the Interior
                                        Office of Inspector General
                                              Doioigformoi-0020108

                                      REPORT OF INVESTIGATION

Case Title                                                Case Number
Election Assistance Commission—Vote Fraud                 [Exemption 2]
Reports
Reporting Office                                          Report Date
Herndon, VA                                               March 10, 2008
Report Subject
Report of Investigation


                                                   SYNOPSIS

In September 2005, the U.S. Election Assistance Commission (EAC) hired two consultants to conduct
a study on voting fraud and voter intimidation. In August 2006, the consultants completed their report
and provided it to the EAC for review. The EAC officials edited the report and publicly released a
final version in December 2006. Subsequent to the release, it was learned that the EAC final report
differed from the consultants’ report causing speculation that the report had been changed due to
political motivations or other improper reasons.

As a result of congressional inquiries and media articles regarding the changes and the delayed release
of the report, EAC Chair Donetta Davidson requested the EAC Office of Inspector General (OIG) to
conduct “a review of the circumstances surrounding the voting fraud and voter intimidation research
project.” Not having the investigative resources necessary for such a review, the EAC-OIG requested
and received investigative support from the Department of the Interior (DOI) OIG in April 2007. The
DOI-OIG investigation focused on four general issues: 1) the hiring of the consultants; 2) the
consultants’ draft report; 3) the changes to the draft report; and 4) potential external influence on the
report.

The investigation revealed that there was confusion regarding the intended scope of the project and the
intended use of the consultants’ draft report. In addition, we found that the EAC officials reviewing
the consultants’ report believed the report was poorly written and contained unsupported conclusions
and, therefore, required substantial editing. This, coupled with an initial delay of the EAC beginning
the editing process, caused the final report to be released four months after receiving the consultants’
draft. However, we found no evidence to support allegations that the changes were made to the report
due to improper reasons or political motivations.

Reporting Official/Title                                    Signature
Exemptions 6 & 7C]/Special Agent                            [Exemptions 6 & 7C]
Approving Official/Title                                    Signature
Douglas R. Hassebrock/Special Agent-in-Charge               [Exemptions 6 & 7C]
Authentication Number: [Exemption 2]
This report contained information that has been redacted pursuant to 5 U.S.C. §§ 552(b)(2), (b)(6) and (b)(7)(C) of
the Freedom of Information Act. Supporting documentation for this report may be obtained by sending a written
request to the OIG Freedom of Information Office.

                                                                                                   OI-002 (01/08)
                                                                            Case Number: Exemption 2

We also made the observation that the voting fraud project and issues relating to vote fraud is a highly
charged political issue and that the decision to edit the report without including the consultants for
input, along with the delay of producing the final report, undoubtedly provided a catalyst for the
speculations raised by opponents of the final report.

                                           BACKGROUND

The EAC is an independent, bipartisan agency created by the Help America Vote Act of 2002 (HAVA)
“to assist in the administration of Federal elections and to otherwise provide assistance with the
administration of certain Federal election laws and programs, to establish minimum election
administration standards for States and units of local government with responsibility for the
administration of Federal elections” and additional purposes set forth by HAVA. The EAC’s
additional duties include accrediting testing laboratories, certifying voting systems, auditing the use of
HAVA funds, and overseeing the national mail voter registration form.

Four commissioners, appointed by the President and confirmed by the U.S. Senate, oversee the daily
operations of the EAC. Consistent with the bipartisan nature of the agency, no more than two serving
commissioners may belong to the same political party.

An executive director is selected by the EAC commissioners and appointed to a four-year term. The
executive director’s duties “include managing EAC operations, preparing long-term goals, developing
voluntary voting system guidelines, reviewing all EAC reports and studies, and managing staff and
consultants.”

Section 241 of HAVA directs the EAC to periodically conduct studies related to election
administration issues and make them available to the public. This provision lists the subject matters of
19 specific areas and adds any subject that the EAC deems “appropriate.” Listed studies include
“[n]ationwide statistics and methods of identifying, deterring, and investigating voting fraud in
elections for Federal office,” and “[i]dentifying, deterring, and investigating methods of voter
intimidation.”

U.S. Election Assistance Commission (EAC)

In September 2005, the EAC hired two consultants to conduct a study on voting fraud and voter
intimidation. In August 2006, the consultants completed their report and provided it to the EAC for
review. EAC officials edited the report and publicly released a final version in December 2006.

On October 11, 2006, Richard Wolf of USA Today reported that “a preliminary report to the U.S.
Election Commission has found little evidence of…polling place fraud…” Wolf based his statement
on the following lines from the draft report that had not been publicly released: “There is widespread
but not unanimous agreement that there is little polling-place fraud, or at least much less than is
claimed, including voter impersonation, ‘dead’ voters, non-citizen voting and felon voters.” Wolf
noted that opinions of election officials who read the report differed on the findings.

On April 11, 2007, a New York Times (NYT) article, written after the public release, reported that the
EAC had altered the conclusions reached by elections experts (consultants) who had found little
evidence of voter fraud in U.S. elections. According to the article, several democrats have said that the
EAC changed the consultants’ report due to political motives. The article led to speculation and



                                                    2
                                                                        Case Number: Exemption 2
allegations from other media, public sources, and congressional members concerning the reason for the
EAC’s edits.

On April 12, 2007, U.S. Senators Dianne Feinstein (D-CA), Chairwoman, Committee on Rules and
Administration, and Richard Durbin (D-IL), Chairman, Subcommittee on Financial Services and
General Government Committee on Appropriations, sent a joint letter to EAC Chairwoman Davidson
seeking a response to media allegations that the EAC’s handling of the voting fraud and voter
intimidation report, might have been politically-motivated. The letter cited the April 11 NYT article
that reported that the EAC had changed the findings of “a bipartisan team of election law experts”
which “found little [voter] fraud around the nation” to a conclusion “that the pervasiveness…was still
open to debate.”

On the same date, Congresswoman Zoe Lofgren (D-CA), Chair of the Committee on House
Administration Subcommittee on Elections, sent a letter to the EAC indicating her concern with “what
appears to be an emerging pattern by the EAC to hold off on publicly releasing reports as well as
modifying reports that are released.” Lofgren noted that the EAC’s version of the report “does not
accurately reflect the research in the original report” written by the consultants, causing Lofgren to
question the EAC’s motives and “lack of transparency.” Lofgren questioned how she and other
legislators can “rely on advice” from the EAC if they “are provided an inaccurate modified version [of
the report] which negates clear evidence to the contrary in the original research?”

As a result of these media articles and congressional inquiries, EAC Chairwoman Donetta Davidson
released a copy of the consultants’ report to The Congress. She then requested, on April 16, 2007, that
the EAC-OIG conduct a review of the circumstances surrounding the voting fraud and voter
intimidation research project.

On April 27, 2007, the EAC-OIG requested and received investigative assistance from the DOI-OIG.

                                 DETAILS OF INVESTIGATION

We initiated this investigation on April 27, 2007, at the request of the EAC-OIG, based on allegations
that the conclusion in an EAC report on voting fraud and voter intimidation had been modified from its
original findings due to political interference.

During the course of this investigation, we conducted over 25 interviews with the consultants, current
and former EAC commissioners and staff members, and participants in the project’s working group.
We also reviewed tens of thousands of documents—those made public in accordance with the
congressional production demand as well as some we requested from non-EAC employees.

We have outlined our findings in this report in the following four sections: 1) the hiring of the
consultants who conducted the study, 2) the consultants’ draft report, 3) substantive changes made to
the consultants’ draft report, and 4) the potential improper external influence over the EAC.

The Hiring of the Consultants

The hiring of the consultants for the voting fraud project was primarily overseen by four EAC
employees—Research Director Karen Lynn-Dyson, General Counsel Julie Hodgkins, Election
Research Specialist, and Executive Director Tom Wilkey. The group sought to hire a bipartisan team
to conduct the project and ultimately identified three individuals.



                                                   3
                                                                             Case Number: Exemption 2

Tova Wang, a Democracy Fellow at The Century Foundation, was selected as the Democratic
consultant. Wilkey said he recommended Wang for the project, citing that he had known Wang for
years having worked with her at various times in New York. Wilkey said Wang had performed some
work on voter identification and election reform for The Century Foundation.

Job Serebrov, an Arkansas attorney, was selected as the Republican consultant. Hodgkins believed
Serebrov was qualified because of his extensive knowledge in the field of voter fraud and his
experience working as the Louisiana state HAVA coordinator.

A political science professor [Exemptions 6 & 7C] was selected as a neutral party. The professor
initially committed to the project but later withdrew during the preliminary stages of the project for
unspecified reasons.

(Agent’s Note: The EAC commissioners ultimately held a vote and unanimously approved the
selection of Wang and Serebrov. The commissioners at the time were Chairman Paul DeGregorio,
Gracia Hillman, Ray Martinez, and Donetta Davidson.)

Lynn-Dyson said she was initially responsible for organizing the project and providing oversight to the
consultants; however, she later began feeling overwhelmed and unqualified to oversee the project and
contract. She explained that she had not yet completed her training to become a Contracting Officer’s
Technical Representative (COTR) and had to continually rely upon Hodgkins for assistance with
contracting issues. Ultimately, Lynn-Dyson requested that Wilkey transfer the project oversight and
COTR responsibilities to an Election Research Specialist. Wilkey agreed and the Election Research
Specialist, with extensive election experience, became the COTR on the voting fraud project.

Hodgkins said the scope of the contractors’ work was an early topic of discussion. Hodgkins
explained that the contractors were to start small by developing a definition of voting fraud, then
survey existing law and available research, and finally provide recommendations on how the EAC
might conduct a more extensive research project about voting fraud. The contracts for Wang and
Serebrov, including the statements of work, are appended to this report.

Hodgkins further explained that the EAC never intended to publish the consultants’ report, but that the
consultants’ contracts clearly indicated the contractors would provide the EAC with a draft report to
utilize at its discretion. Hodgkins said she had never heard the consultants express their desire for draft
publication or complain about the lack of publication.

Consultant Wang said she believed the contract called for her and Serebrov to create a definition of
voting fraud/voter intimidation, assess the current state of research in the area, and conduct a
preliminary survey of voting fraud. Wang acknowledged that their study was intended to be a first-
glance overview, not a final measure of the topic. Wang said she believed they were to produce a
draft, which the commissioners would review and for which they would provide input, and she and
Serebrov would then produce a final report. She thought the draft report would be published but
admitted that might have been a presumption on her part. She added that the EAC’s guidance on how
to conduct the project consisted of the contract’s statement of work as well as communication from the
project’s COTR.

When asked if the contract included a publication clause or additional information about what would
be published, Wang said she did not know. She added that, as an attorney, she always advises her



                                                    4
                                                                           Case Number: Exemption 2
clients to read contracts very closely. She said she was slightly embarrassed that she did not follow the
same advice she tells her clients and was not as versed in her own contract’s terms as she should have
been.

Similarly, consultant Serebrov said the project “was a preliminary study.” He said it was their job to
define voting fraud in preparation for future EAC studies. Serebrov added that their findings were
never meant to be a “final” report. “We had no guarantee that it would be published,” Serebrov said.
In fact, he said he had been told numerous times by both Hodgkins and the project’s COTR that the
report could and would be changed. He said the EAC’s intention was “clear since day one.”

Serebrov said the contracts he and Wang signed stipulated that the research would become the property
of the EAC. He said Wang, however, did not like the fact that their report might not be published and
wanted her work published just as she had written it. He believed Wang saw the issue of publication
of her work as an issue of integrity and she became upset because she knew that people who had
worked on other projects had their names published and received personal credit for their work.

Serebrov said he and Wang conducted 24 interviews of election professionals they selected from
various working backgrounds to create a “spectrum” large enough to study. (Agent’s Note: The
consultants’ report shows that they actually interviewed 26 individuals.) Throughout the process,
Serebrov said he wrote monthly progress reports with invoices and sent them to the project’s COTR,
and that he and Wang reported to the EAC individually. According to Serebrov, no one at the EAC
ever gave him any feedback on his progress reports. He and Wang synopsized their interviews and
findings in what became a draft report. Serebrov said they checked each other’s interviews and made
adjustments to which they both agreed.

Commissioner Hillman believed at the project’s outset that the consultants’ draft report would not be
made public because it was intended to be used as background information for a future study. She
believed that Wang and Serebrov probably thought all along that their work would be published.

Commissioner Davidson said she was unsure of specific publication plans for the consultants’ report,
although she was under the impression that the EAC had always intended to publish a draft of the
consultants’ findings in some format. She stated that the EAC “always [has] to do something.”

Commissioner Rosemary Rodriguez said she did not know if the contract contained a publication
clause. She offered that reports are typically made public, and she was certain the EAC’s Board of
Advisors expected a public report. She did not know, however, if the EAC intended to publicly release
the consultants’ report or only the final report.

Former Commissioner DeGregorio said that the consultants were hired to perform research after which
the EAC would ultimately issue an EAC report. He added that the law stipulates EAC, not the
consultants, issues reports. Although he did not know what the consultants’ expectations were, and to
his knowledge the consultants never discussed publication with the EAC, he opined Wang and
Serebrov would have been “irrational” to believe their work would remain intact and unedited by the
EAC.

The voting fraud project contract called for the creation of a working group to assist the consultants
with the project. As with the selection of the consultants, and to reflect the organization of the EAC
itself, the working group was designed to be bipartisan. According to the COTR, the selection of the
working group members was a collaborative effort primarily between Wang, Serebrov, and the COTR.



                                                   5
                                                                         Case Number: Exemption 2

The working group consisted of nine members with various election backgrounds and political
affiliations:

   •   Todd Rokita, Indiana Secretary of State, Member of the EAC’s Standards Board and Executive
       Board of the Standards Board
   •   Kathy Rogers, Georgia Director of Elections; Member of the EAC’s Standards Board
   •   J.R. Perez, Guadalupe County Elections Administrator, Texas
   •   Barbara Arnwine, Executive Director, Lawyers’ Committee for Civil Rights Under Law,
       Leader of Election Protection Coalition (Agent’s Note: Arnwine was replaced by Jon
       Greenbaum, Attorney and Director of the Voting Rights Project, Lawyers’ Committee for Civil
       Rights Under Law, when she could not attend the meeting.)
   •   Benjamin Ginsberg, Partner – Patton Boggs, LLP; Counsel to National Republican Campaign
       Committees and Republican Candidates
   •   Robert Bauer, Chair of Political Law Practice – Perkins Coie; National Counsel for Voter
       Protection, Democratic National Committee
   •   Mark (Thor) Hearne II, Partner – Lathrop & Gage, St. Louis, MO; National Counsel to the
       American Center for Voting Rights
   •   Barry Weinberg, Former Deputy Chief and Acting Chief, Voting Section, Civil Rights
       Division, U.S. Department of Justice
   •   Technical Advisor: Craig Donsanto, Director, Election Crimes Branch, U.S. Department of
       Justice

The working group met once, during a day-long collaboration in Washington, D.C., on May 18, 2006.
Present at the meeting were the nine working group members, the project COTR, Wang and Serebrov.
In addition, EAC officials, including Hodgkins, DeGregorio and Wilkey attended the meeting at
various times throughout the day.

The Consultants’ Draft Report

According to the COTR, who had coordinated most of the EAC’s interaction with Wang and Serebrov,
the consultants’ version of the report was submitted in several pieces on or about July 15, 2006. She
said another piece of the report was submitted on August 5, 2006.

Once submitted, the consultants’ report went untouched by the COTR or other EAC officials for
approximately two months. The COTR was responsible for taking appropriate actions after receiving
the report; [Exemptions 6 & 7C.]

Hodgkins reported that sometime in September or October 2006, Commissioner DeGregorio suggested
that Hodgkins take over the project from the COTR, including responsibility for the editing process.

Wilkey recalled that he was the one who transferred the responsibility from COTR. He acknowledged
that he should have reassigned the project [Exemptions 6 & 7C.] Wilkey said Hodgkins had excellent
writing skills and the ability to get things done and was the obvious choice to complete the editing.

(Agent’s Note: Although Hodgkins was specifically given responsibility for the editing process, she
did not conduct the process alone. All of the commissioners, along with Wilkey, provided editorial
input before the report was made final. In addition, the COTR, Communications Director Jeannie



                                                  6
                                                                      Case Number: Exemption 2
Layson, and Deputy General Counsel Gavin Gilmour, along with several law clerks, reviewed the
consultants’ report and provided their own input.)

According to Commissioner Hillman, it was inexcusable that the project went untouched by the EAC
for two months after being submitted. Although she understood [Exemptions 6 & 7C] Hillman
believed the COTR still had a duty to inform somebody at the EAC that the draft had been submitted
and was awaiting action.

Former Commissioner Martinez acknowledged that the EAC should have done a better job ensuring
the timeliness of the report’s release. He offered that he and the other commissioners deserved blame
over this issue. DeGregorio repeated this sentiment, acknowledging that the EAC should have
reassigned the report from the COTR earlier than they had.

Because of the delay in publication, various individuals, media sources, and advocacy groups such as
the Brennan Center for Justice, alleged that the EAC suppressed the release of the consultants’ report
due to outside influence. The April 12, 2007 letters from Senators Feinstein and Durbin and
Congresswoman Lofgren also questioned the delay in publicly releasing the report.

Our investigation revealed that after Hodgkins collected and reviewed the consultants’ report; she
found the draft report to be poorly written and disorganized. After making her edits, she sent the report
to the COTR, Gilmour, and Layson for their review and input. All three concurred with Hodgkin’s
assessment of the consultants’ report, as did the other EAC officials discussed in the paragraphs below.

As EAC’s liaison with the consultant, the COTR was exposed to the consultants’ writing at various
times throughout the project. The COTR agreed with Hodgkins, believing the report was not well-
written and included tense shifts and typographical errors.

Gilmour agreed with Hodgkins’ edits, adding that the consultants’ “work product was so bad” that the
EAC could not publish their report as submitted. The draft was stylistically not well-written and
lacked readability, according to Gilmour.

Wilkey affirmed that he had personally read the draft and agreed with his colleagues that it needed to
be edited. He recalled that the draft report had to be edited for various reasons, mostly stylistic, with
one issue being a lack of cohesiveness. He said it did not seem to “flow,” a criticism also leveled by
Hodgkins, the COTR, and Layson. Being familiar with Wang’s work, Wilkey said the report “wasn’t
her best work.”

In addition to stylistic, grammatical, and typographic problems, several interviewees discussed what
they believed to be a more important issue with the consultants’ information; they believed the
consultants’ research and analysis was flawed.

According to Commissioner Hillman, the consultants’ conclusions could not be easily corroborated by
supporting data. For example, Hillman said that, in reviewing the draft report, she wanted to further
examine the issue of harassment of minorities and challenger laws; however, when she looked for
details in the interview summaries to support the conclusions the consultants reached, she said she
discovered that only four of the interviewees had even mentioned the issue. She said only one
interviewee specifically discussed the issue, referring to a case in North Dakota. In her opinion, data
was limited in some areas and did not necessarily support the conclusions well.




                                                    7
                                                                           Case Number: Exemption 2
Hillman believed that if somebody challenged the study, she and the other commissioners could not
rely on research that was not arduous and complete enough to adopt as “gospel.” Even though she
thought the contract’s scope was clearly understandable, she thought the COTR was too inexperienced
in the matter to clearly define for the consultants what the EAC was looking for in the project.
Furthermore, in practical terms, Hillman believed the study was too broad and too “massive” for
analysis.

Commissioners Davidson and Caroline Hunter agreed that the consultants reached conclusions that
were not supported by the documentation and the interviews. Hunter added that the research was
flawed enough that she “wouldn’t even call it research.”

Hodgkins opined that the consultants exceeded the scope of their contract by attempting to make
global conclusions about the voting fraud issue—something she said they were never contracted to do.
She said that the manner in which the consultants worded their generalizations makes the reader
believe they are making conclusive statements about voting fraud, and she emphasized that the project
was never intended to determine the extent of voting fraud in U.S. elections.

Both Layson and Gilmour agreed with Hodgkins that the consultants reached conclusions they should
not have made, exceeding the scope of their contracts. Layson said the conclusions based on a limited
amount of interviews caused readers to interpret those conclusions as real or authoritative when they
should not be considered so. She affirmed that the EAC never expected the consultants to reach
conclusive findings, especially not based on such a limited study.

Gilmour believed the consultants’ report reached partisan conclusions that should not have been made.
He believed the consultants wrote “unwise sentences,” not carefully considering how they would be
read. Gilmour opined that one has to be cognizant of the press and how one’s words might be
interpreted. He believed the final report essentially retained the consultants’ information while
wording it more carefully.

Commissioners DeGregorio, Davidson, and Hillman each believed the contract was intended as a
preliminary study to define voting fraud for use in a future EAC study, and each believed the
consultants exceeded the scope of the project by drawing conclusions. DeGregorio believed there was
“no question” the consultants exceeded the scope of their contracted objective by reaching conclusions,
particularly those not supported by vigorous research of the facts and based on a limited number of
interviews. He further remarked that Hodgkins’ edits did not reflect a partisan bias but, instead, tried
to “bring [the report] back” to the intended scope.

Commissioner Martinez did not necessarily believe the consultants exceeded the scope of the project
by reaching conclusions. His understanding was that the consultants were hired to essentially perform
a literature search and a comprehensive review on how the EAC could strategically approach this issue
in the future. He said the consultants’ work was intended to “bring [the EAC] up to the doorstep” but
not “settle the issue.” He offered that the contract’s statement of work was the best authority on the
scope of work, adding that the EAC staff members should have been monitoring the consultants’ work
to make sure their work was within scope.

Several EAC employees noted that the report also contained inaccuracies. As an example of those
inaccuracies, they pointed to the consultants’ interview summary of Craig Donsanto, Chief of DOJ’s
Election Crimes Section in the Public Integrity Section, the technical advisor of the project’s working




                                                   8
                                                                     Case Number: Exemption 2
group and a member of the EAC’s BOA. Others pointed to the handling of Donsanto’s interview
summary as improper influence on the EAC by DOJ.

In their summary of Donsanto’s interview, the consultants wrote that Donsanto said DOJ was shifting
its prosecution strategy from the prosecution of voting fraud conspiracies to the prosecution of
individuals who commit voting fraud.

According to Donsanto, as a member of the working group, he had access to the summary of his
interview. He said that, after reading the summary of his interview and seeing that his words were
wrongly interpreted, he called the COTR and possibly Wilkey to complain about the inaccuracies. He
said the COTR, who had been present during the interview, reviewed the summary and agreed with
Donsanto that the summary did not accurately reflect what the COTR had heard Donsanto say in the
interview. The COTR told him the interview would not be included in the final report as written and,
at a later date, told him the interview would be rewritten accurately.

When investigators questioned Donsanto about the inaccuracy, he recalled that Wang had asked him if
the amount of voting fraud had increased or had stayed the same over the years. When he responded
that it had stayed the same, Wang interpreted that to mean the issue was of minimal concern to
Donsanto and DOJ, which he assured was neither his nor DOJ’s stance. He believed Wang thought
“stayed the same” was equivalent to a minimal amount; Donsanto said he simply meant that the
amount had not increased or decreased from the amount that already existed. He said DOJ, at the
direction of the U.S. Attorney General, added the prosecution of individual voter fraud to their
continuing prosecution of conspiracies; they did not replace the latter with the former.

Donsanto believed the consultants—mostly Wang—wrote what they wanted to hear regardless of what
he had told them. He said it was clear to him that Wang’s politically-biased line of questioning
indicated she was following her own agenda.

Donsanto told investigators that the COTR’s [Exemption 6 & 7C] presence as a “witness.” He said he
personally makes it a point to have a witness present when providing statements on the record, adding
that it is common practice at DOJ for a witness to be present during interviews such as the one he gave
the consultants to ensure the accuracy of comments and to maintain the integrity of the process.

Wang said she was certain that what the consultants had written was what Donsanto had told them in
his interview, adding that Serebrov heard the same thing and agreed with what was written. Wang said
the COTR sided with Donsanto for various reasons. Wang opined the COTR’s longstanding
professional relationship with Donsanto affected the COTR’s version of events. Additionally, Wang
said the COTR spoke with her about the sensitivity of the prosecution issue and how DOJ might react
to the consultants’ version of Donsanto’s interview. She believed the EAC’s change to Donsanto’s
interview summary was evidence of DOJ’s special interest in the project. Wang opined it was
unethical to allow only one interviewee to see the summary of his interview while excluding the others
from seeing theirs.

Serebrov stated that he could not recall the specific details of the disagreement regarding Donsanto’s
interview summary. He recalled only that he and Wang had heard the same thing that Donsanto said
about DOJ investigations.




                                                   9
                                                                           Case Number: Exemption 2
Serebrov had no issues with the other edits made to the draft report. He said he believed his work was
fine because the EAC never provided feedback to his monthly progress reports; however, his work was
for the EAC which had the right to do with it as they pleased.

In contrast to Serebrov’s attitude about changes to his work, Wang was upset at the various changes
and believed the report was inappropriately edited. She told investigators that, although she did not
initially believe the changes made to her and Serebrov’s report was “extreme,” she changed her
opinion after considering all the information that had been made public. She also pointed out that she
was not allowed to view the EAC’s final report before it was published. She said that the EAC “threw
our work in the garbage” without justification.

During the interview, the COTR said the consultants insisted on no changes to Donsanto’s summary
even after the COTR had forwarded to them Donsanto’s comments about the inaccuracy of the
interview summary.

The COTR had the perception that the consultants believed they were experts and thought their work
should remain unchanged, and they did not want a single word changed in the report they submitted.

Substantive Changes Made to the Consultants’ Draft Report

The EAC publicly released the voting fraud final report on December 7, 2006. On April 11, 2007, the
New York Times (NYT) article reported that the EAC had altered the conclusions reached by the
consultants. According to the article, the conclusion was changed due to political motives in order to
reflect that the pervasiveness of voter fraud was debatable. The articles led to speculation and
allegations from other media, public sources, and congressional members concerning the reason for the
change. The article captured some of the comments, which ultimately led to this investigation:

       “This was the commission's own study and it agreed in advance to how it would be
       done, but the most important part of it got dropped from the final version," said
       Representative Jose E. Serrano, Democrat of New York and chairman of the House
       appropriations subcommittee that oversees the commission. “I don't see how you can
       conclude that politics were not involved." Representative Maurice D. Hinchey, another
       New York Democrat, who requested the draft report from Ms. Davidson during a
       subcommittee hearing last month, agreed." By attempting to sweep this draft report
       under the rug, the E.A.C. is throwing out important work, wasting taxpayer dollars and
       creating a cloud of suspicion as to why it is acting this way," he said.

Investigators compared the differences between the consultants draft report and the final EAC released
report and questioned key personnel regarding their interpretation of the changes. Our comparison
found the most significant change to the consultants’ report appeared to be in the conclusion. The
consultants’ report read, “there is widespread but not unanimous agreement that there is little polling
place fraud.” The final version of the report after editing by EAC officials concluded in its executive
summary that “there is a great deal of debate on the pervasiveness of fraud.”

On August 30, 2007, an article written by Tova Wang, titled “A Rigged Report on U.S. Voting?” was
published in the Washington Post newspaper. In the article, Wang wrote: “…our preliminary research
found widespread agreement among administrators, academics and election experts from all points on
the political spectrum that allegations of fraud through voter impersonation at polling places were
greatly exaggerated. We noted that this position was supported by existing research and an analysis of



                                                  10
                                                                           Case Number: Exemption 2
several years of news articles. The commission chose instead to state that the issue was a matter of
considerable debate. And while we found that problems of voter intimidation were still prevalent in a
variety of forms, the commission excluded much of the discussion of voter intimidation.”

The phrasing of the final report’s conclusion regarding vote fraud was also examined by Ian Urbina in
his April 11, 2007 NYT article. Urbina wrote in his article: “Though the original report said that
among experts ‘there is widespread but not unanimous agreement that there is little polling place
fraud,’ the final version of the report released to the public concluded in its executive summary that
‘there is a great deal of debate on the pervasiveness of fraud’” .

Urbina drew a comparison between the EAC’s revisions and Republican justifications for voter
identification laws. His charge was then picked up by various sources, including election law
professionals, academics, mainstream media, alternative media, and congressional members.

A majority of those who were interviewed during this investigation could not specifically articulate
differences between the reports, or they said the reports were not substantially different. Those who
noted differences in the reports primarily pointed to: the change in the conclusion about the
“pervasiveness” of vote fraud; the title change; and the inclusion of an executive summary.

Investigators questioned both current and former EAC officials about their changes to the consultants’
conclusion. Specifically, they were asked to provide information about why the EAC changed the
conclusion and what it meant for the EAC to say “there is a great deal of debate on the pervasiveness
of fraud.”

Generally, EAC officials’ opinions of the changes did not differ significantly. Most officials said the
two reports were not substantially different.

Commissioner Hillman said she did not believe the two reports were substantially different. She said
the final report did not favor a political party or stance—it simply said a lot of work needs to be done
before a conclusion can be reached about the amount of voting fraud in U.S. elections.

Hillman added that, at some point, Urbina told her that the word “pervasive” in the context of voting
fraud is a “Republican word.” Hillman said she had never before heard of such a connotation and
recalled no such personal view when she read the word “pervasiveness” in the final report. She offered
that if the word was chosen for political reasons and added to the report tactfully to elude her notice, it
had worked; however, she did not believe anybody at the EAC edited the report with political bias.
She said Hodgkins was a better source regarding the reasons for the edits because Hodgkins was the
primary editor.

Commissioner Davidson said readers’ impressions of both reports should be the same. She added that
“there are conclusions” in the final report; however, the EAC’s final version did not make conclusions
that could not be supported by the researchers’ findings.

Commissioner Hunter initially told investigators that the consultants’ report had a strong “Democratic”
bent to it; however, in reconsideration, she said she did not think the report favored a particular party.
She believed the report did, however, reach conclusions that were improperly drawn.

Commissioner Rodriguez opined that the consultants’ report is more aligned with the Democratic view
about the lack of voting fraud in U.S. elections, although she believed its conclusions could also be



                                                    11
                                                                           Case Number: Exemption 2
considered “reasonable.” She believed the final report simply states there is insufficient information to
make a conclusive judgment—a “reasonable conclusion.” She called the final report “benign,” saying
both reports’ conclusions are reasonable—the consultants’ is simply more partisan in its approach.

Commissioner DeGregorio said the consultants simply should not have reached conclusions in their
report. He believed the conclusions were based on a limited number of interviews and limited
research, and Hodgkins’ edits, rather than reflecting a partisan bias, tried to “bring [the report] back” to
fit the intended scope. DeGregorio noted that Hodgkins’ editing process for the voting fraud project
followed the EAC’s standard operating procedures, involving multiple EAC employees whose
suggestions were considered for the final edit.

Layson said the consultants’ report arrived at conclusions, exceeding the scope of the contract, based
on the small sample of interviews. She said the final report explains the process of the study and puts
the consultants’ work in context, although it also should have made clear that the consultants’ work
was not a definitive study. She believed the consultants’ conclusions should not be taken as definitive
statements about voting fraud.

Hodgkins said she did not edit the report with political bias, adding that the consultants’ report does
not say conclusively that voting fraud is or is not pervasive in U.S. elections—it merely recapitulates
what the consultants’ interviewees told them about voting fraud. According to Hodgkins, the final
report concludes there is a lot of debate about voting fraud/election crimes, although the issue requires
more research—the very thing, she pointed out, that the EAC intended to do following the consultants’
preliminary study Hodgkins explained further, that neither the working group nor the board of advisors
was given a copy of the final report prior to its release. The consultants also were not given the
opportunity to view the edited final report. Hodgkins said the consultants were not given the
opportunity to review the final report because they were hired essentially to provide the initial draft.
After they had completed their work, there was no longer a relationship. Hodgkins opined that
releasing the report to either of the consultants would have been equivalent to releasing the report to
the public.

The COTR said the EAC’s final report indicates that, although voting fraud exists, there is insufficient
evidence to make a clear conclusion about its pervasiveness. Due to the COTR’s elections experience ,
it is difficult to determine the extent to which voting fraud occurs because data is essentially anecdotal,
with fraud seeming more prevalent in politically-charged regions of the country. The COTR
emphasized that the main problem with the reports was that the consultants thought they were experts
and did not want even a single word of their report changed.

One working group member said the EAC had the right to question the consultants’ report; however,
the EAC should not have changed their work product. He believed EAC’s changes should have been
agreed to by everybody, including the consultants. Because the final report was the product of an
“absolutely ludicrous,” “sham” process, he opined it “has no credibility.”

(Agent’s Note: The final report changed the consultants’ title of “Voting Fraud and Voter
Intimidation” to “Election Crimes.” Along with the change to the consultants’ original working
definition, the EAC changed the title ostensibly to reflect what they believed was a more accurate
reflection of the issue.)

Hodgkins said the definition of voting fraud the consultants were tasked with formulating ended up as
more of a compilation of information rather than an actual definition. Their draft definition was



                                                    12
                                                                        Case Number: Exemption 2
unworkable for the EAC and, to help limit the scope of any future EAC study of the voting fraud issue,
the scope was changed to “election crimes.”

Donsanto said the change in the final report to “Election Crimes” more accurately described the issue
than did the previous title. As a leading expert in the field of election crimes, Donsanto said the
consultants did not understand what DOJ considered to be “criminal.”

Wang opined in her Washington Post article that one should consider the revised title. “Whereas the
commission is mandated by law to study voter fraud and intimidation, this new report was titled
simply "Election Crimes" and excluded a wide range of serious offenses that harm the system and
suppress voting but are not currently crimes under the U.S. criminal code.”

The final report contains an executive summary that did not exist in the consultants’ draft. Hodgkins
said she added the summary at the commissioners’ direction for organizational reasons. She added
that, although the nature of an executive summary allows for different interpretations, there is no
difference in content between the consultants’ report and the final report. She opined the final report
improved the consultants’ poorly-written report and provided a more balanced view.

Potential Improper External Influence over the EAC

As previously noted, allegations were made by several sources suggesting there were political or other
external pressures that influenced actions by the EAC regarding the voting fraud report.

During our investigation, information was received that suggested that Commissioner Davidson had
received “outside” pressure to not release the consultants’ report. Specifically, the allegation was that
an EAC attorney was aware that Commissioner Davidson had received pressure from the White House
to not release the consultants’ report. Allegedly, Davidson was upset by the phone call and told
Martinez about the incident, who in turn told the attorney during a private conversation.

When interviewed about this allegation, the EAC attorney said he did not personally witness the
incident and knew only what Martinez had told him. According to the attorney, sometime just prior to
the consultants’ submission of their report—probably around June 2006—Davidson had entered
Martinez’ office and tearfully told Martinez that she was receiving political pressure to not release the
consultants’ report. The attorney said he did not know either the source of the pressure or what form
it took. He said the pressure could have come from somewhere other than the White House, and it
could have occurred in an e-mail or even some other form.

The EAC attorney said he told another EAC employee and possibly another EAC attorney and an EAC
Research Specialist, about the incident. He said he had told others not in the spirit of gossip but
because he was concerned that projects such as the voting fraud project might be “hamstrung” by
external pressure.

When Martinez was asked about the alleged incident, he confirmed that he was told by Davidson of
being pressured to not release the report; however, he explained that the actual circumstances were
different from the rumors that were circulating.

Martinez recalled that, at an April or May 2006 meeting, members of the EAC’s Standards Board and
Board of Advisors were briefed about the Eagleton study (a completely different project) on
provisional voting that was being finalized for publication. Martinez said the board members found



                                                   13
                                                                           Case Number: Exemption 2
the controversial report to be poorly-written and poorly-executed, and the election officials among the
members “crucified” the study. In particular, Martinez said, one of the board members “was up in
arms,” saying the report was inaccurate, wrong, and should “never see the light of day.”

According to Martinez, during a staff update or briefing in June 2006 attended by him, Hillman,
DeGregorio, Lynn-Dyson, and either Hodgkins or Gilmour, the Eagleton study was again discussed.
Martinez said that, when Lynn-Dyson told the commissioners that the study was in the process of
being edited and prepared for finalization, he “took the opportunity to lay down a marker” for his EAC
colleagues regarding the upcoming voting fraud and voter intimidation report. Because he was a
proponent of greater transparency at the EAC, he forcefully argued his belief that when the consultants
completed their voting fraud report, the EAC should release it in its original form no matter what the
EAC ultimately decided to do with it. He said he was “getting signals” of support from Hillman and
DeGregorio; however, Davidson “was pushing back.”

Fewer than five minutes after the meeting adjourned, Martinez recalled, Davidson stopped by his
office to talk. Martinez said Davidson came to his office “clearly distressed” and, although she was
not crying, as an EAC attorney had reported, her “eyes welled up” with emotion. Martinez said
Davidson told him she was receiving a lot of pressure to not release the consultants’ voting fraud
report.

Martinez said he felt compassion for Davidson. In November 2005, [Exemptions 6 & 7C,] Davidson
was very supportive, comforting, and compassionate—something for which Martinez said he will
always be appreciative. Because Martinez felt as if he owed Davidson the same emotional support she
gave to him in November 2005, he “backed off” of his push to release the consultants’ report.
Martinez said, although he still personally believed the EAC should publicly release the consultants’
report upon receipt, he felt enough compassion for Davidson that he stood by his decision to support
her.

Martinez said he did not know the source of the pressure on Davidson, nor did he even care to know.
He was more concerned with supporting Davidson than discovering who was pressuring her. He
believed the pressure came from the same constituency of election officials that Davidson, an election
official, brought to the position and that criticized the Eagleton report. Martinez said that, because he
understood the nature of Davidson’s constituencies, he “backed off.”

Martinez denied having direct knowledge that the impromptu conversation with Davidson took place
because of a phone call from the White House to Davidson, emphasizing that he believed the incident
occurred because of the conversation that occurred in the staff meeting that day. He reiterated that he
had witnessed no evidence of undue influence over the voting fraud project. Martinez confirmed he
told an EAC attorney and a family member wife about the incident; however, he said the motivation
was not to gossip and was not “sinister.”

When asked if he told anybody else, Martinez said, regretfully, that he told the Brennan Center’s
Wendy Weiser because she was part of his “kitchen cabinet” of advocates which included someone
from the League of Women Voters and a person formerly with the DOJ Civil Rights division, and now
with People for the American Way. Martinez said, in retrospect, that he “shouldn’t have” told either
the EAC attorney or Weiser about the incident because they simply did not need to know. Further, he
believed that Weiser, without understanding the context of his relationship with Davidson and without
knowing that the pressure was more perceived than real, might see the incident as part of “her
conspiracy theory” over the voting fraud project rather than as the innocuous event it really was.



                                                   14
                                                                            Case Number: Exemption 2

When contacted, Weiser corroborated that she had a telephone conversation with Martinez, probably in
June 2006, and was told of Davidson feeling pressured to release a report. She said she could not be
certain that Martinez was referring to the voting fraud report in their conversation, although she
believed he was.

Davidson’s recollection of these events was different from Martinez’s; in fact she did not recall ever
speaking with Martinez about pressure related to the voting fraud project. She said she had no contact
with anyone outside the EAC concerning the report during the voting fraud project. Rather, she said, a
similar incident took place over the voter identification project. According to Davidson, the only
report that bothered her was the voter identification report, which she opposed because it was
substantively deficient and inaccurate. She said the only pressure she felt was self-imposed—a
pressure to not support a report with which she did not agree.

Davidson said Martinez is a trustworthy person, and she agreed with him that she was “emotional” in
their conversation and that it took place following a staff meeting; however, she reiterated that she and
Martinez discussed the voter identification report, not the voting fraud and voter intimidation report.
She added that she did not feel pressure or intimidation over the voting fraud report and, therefore,
refuted the allegation that she told Martinez she felt pressure not to release the report.

Additional allegations received during the investigation suggested that the DOJ had an improper
influence over the EAC. The basis for these allegations was the previous discussed changes to
Donsanto’s interview and certain e-mail messages of Hans von Spakovsky, EAC board member and
former counsel to the Assistant Attorney General for DOJ’s Civil Rights Division.

Consultant Wang told investigators that on January 13, 2006, von Spakovsky, sent an e-mail to the
EAC commissioners and to The Congress expressing his desire to “kill the [voting fraud] project.”
Wang said she assumed he objected to her selection as one of the consultants because he did not like
her views about voter identification.

In her article, Wang repeated her allegation that von Spakovsky complained about her being hired as
one of the consultants for the report. In addition, she stated: “Officials at Justice were actively
involved in the report throughout the process and even exerted some degree of editorial control over
the new report. And it is evident from the commission's ‘document dump’ that its Republican general
counsel assumed primary control over the rewriting of the report.”

Von Spakovsky denied Wang’s assertion that he wanted to halt the project, believing there was a need
for a comprehensive study of voting fraud. He did believe, however, that Wang was a poor choice to
conduct that study because of her inexperience as either a prosecutor of election crimes or as an
election official, and because of her outspokenly-biased belief that voting fraud was a myth.

Von Spakovsky explained further that he did not attempt to influence anything about the voting fraud
project other than the selection of Wang as a researcher which, he said, other EAC board members also
opposed. He said he had no communication with Wang or Serebrov, and he did not discuss the
consultants’ work with anybody at the EAC prior to the issuance of the final report. He added that he
had no idea what the EAC was planning to write in their final report, and he had no influence over the
project.




                                                   15
                                                                         Case Number: Exemption 2
According to DeGregorio, von Spakovsky was specifically concerned that Serebrov might not be an
adequate Republican foil to Wang’s liberalism and aggressive personality. DeGregorio and Martinez
assured von Spakovsky that Wang was a proper selection.

There was also speculation and the allegation that von Spakovsky attempted to influence the EAC
before the voting fraud project. A series of e-mail messages between a former congressional aide,
DeGregorio, and von Spakovsky in August 2005 led to allegations that DeGregorio had been unduly
influenced in his position at the EAC. The e-mails pertained to two separate voting issues over which
the EAC and DOJ disagreed: a voter identification requirement in the state of Arizona, and a
citizenship checkbox requirement interpreted in an EAC best practices document. (Agent’s Note:
While these e-mails were not related to the voting fraud project addressed in this report, they are
mentioned to explain the basis for some of the allegations.)

In the August 29, 2005 e-mail chain between the former congressional aide, DeGregorio, and von
Spakovsky, the aide indicated his belief that the EAC and DOJ had reached “a political compromise
agreement” regarding the conflicting opinions regarding Arizona voter identification. He believed
DOJ was correct in its interpretation of the Arizona voter identification issue.

According to von Spakovsky, DOJ and the EAC had made a deal at a meeting between the two
agencies. Von Spakovsky believed that the meeting adjourned with the understanding that DOJ would
modify its stance on the Arizona issue to align with the EAC’s interpretation; in turn, the EAC would
fix its best practices manual to reflect DOJ’s interpretation about citizenship checkboxes on ballots.

On August 29, DeGregorio sent an e-mail to von Spakovsky asking if the congressional aide’s e-mail
was the result of von Spakovsky’s actions. DeGregorio wrote, “If so, I do not appreciate it.”
DeGregorio noted that von Spakovsky had “indicated that the previous DOJ position on this issue was
to be withdrawn,” and further noted that the EAC had “given Arizona and DOJ all summer to act on
this issue to correct the previous position they have taken so that there would not be conflicting
interpretations of HAVA by two federal agencies.”

In an August 30, 2005 e-mail, von Spakovsky refuted DeGregorio, reminding him that “...[w]e had a
deal where I told you we would consider taking the position you were pushing even though we think it
is too strict if you would correct the obviously wrong position on the citizenship checkbox.” Von
Spakovsky opined, “The fact that [Gracia Hillman] does not want to do this because she does not want
to anger her friends at the league of women voters is no reason for you to be railroaded into this.”

DeGregorio then responded to von Spakovsky via e-mail, “First of all, I do not agree to ‘deals,’
especially when it comes to an interpretation of the law.” He clarified that he told von Spakovsky the
EAC was already in the process of correcting its best practices position on the checkbox issue, adding
that the delay did not have anything to do with Hillman. DeGregorio added that the EAC was devoted
to “getting proper balance” in their contracted work, and he assured von Spakovsky that he was “not
being ‘railroaded’ by anyone on [the] Commission…”.

Von Spakovsky explained that “the law was not crystal clear” on the two issues. He said the EAC and
DOJ’s cooperation was a common practice amongst federal agencies and a positive attempt to resolve
disparate information provided to states; therefore, characterizing the interaction as inappropriate was
wrong.




                                                   16
                                                                            Case Number: Exemption 2
Martinez did not see a problem with von Spakovsky lobbying for political purposes, asserting that
political appointees are expected to lobby on behalf of their respective parties. He added that HAVA
requires DOJ representation on the EAC’s boards, and because von Spakovsky sat on the EAC’s board
of advisors, he rightfully lobbied on DOJ’s behalf. Still, Martinez believed DeGregorio made
decisions in the public’s best interest, and he asserted that von Spakovsky and DOJ had no undue or
improper influence over the EAC in the voting fraud project.

DeGregorio said the communication between he and von Spakovsky was not unusual; however, he
believed that “too many of [von Spakovsky’s] decisions are clouded by his partisan thinking.”
According to DeGregorio, von Spakovsky thought DeGregorio should use his position (on the EAC
commission) to advance the Republican Party’s agenda.

DeGregorio said von Spakovsky certainly “tried to influence [him]. There’s no question about that.”
DeGregorio acknowledged that, although some individuals external to the EAC tried to influence his
actions, he neither catered to those attempts nor showed favoritism in his position, ensuring that
partisan politics did not impede the right of every individual to vote in a fair election.

                                          DISPOSITION

This Report of Investigation will be forwarded to the EAC’s Inspector General.




                                                 17
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1225 New York Ave. NW - Suite 1100
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: U.S. Election Assistance Commission
Waste and Abuse                Office of Inspector General
Involving the U.S.             1225 New York Ave. NW - Suite 1100
Election Assistance            Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
